$upteme Tourt Ohio

JUL - 7 2020
SMS Of CORI,
MAE Waref

Justin W. Sanderson

Case No. 2020-0637

v.

IN HABEAS CORPUS

Warden Folley [sic]

ENTRY

This cause originated in this court on the filing of a petition for a writ of habeas
corpus and was considered in a manner prescribed by law.
Upon consideration thereof, it is ordered by the court, sua sponte, that this cause
is dismissed.

•

Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at http://wwvv.supremecourt.ohio.gov/ROD/docs/

A PPEI\I

A. I Justin W. Sanderson do hereby swear under oath that this petition for rehearing is presented in good faith and not for ladhes.

Justin W. Sanderson

Date

Notary

Date

KAI D. ADAMS
NOTARY PUBLIC • STATE OF OHIO
Recorded in Cuyahoga County
My commission expires May 4, 2022

19_ 2 0

Petitioners other substantial grounds not previously presented inc
lude, State v. Miller, State v. Hill, Viii of New Albany v. Dalton,
State v. Bretz, Cleveland v. Lester, Jamison v. Collins 100F 2nd
647, Mayes v. alumbus, State v. Sanderson, State v. Green, State
v. Sharp, exparte Siebold 100 U.S. 37?HN6, procedure 2935.

Petitioner ask cpourt to review the unconstitutional acts upon
the petitioner and grant his releif.

I, Justin W.Sanderson, do swear under oath that these things are tr
ue and presented under good faith, and that the grounds are limited
to intervening circumstances of substantial or controlling effect
or to other substantial grounds not previously presented.

Justin W. Sanderson

Date il--/9-0

Notay/Notary

Date

N1/6'''.k '

11 'ihte.o100°

KAI D. ADAMS
NOTARY PUBLIC • STATE OF OHIO
Recorded in Cuyahoga County
My commission expires May 4, 2022

